Appellate Case: 20-8011

Document: 010110428693

Date Filed: 10/26/2020

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

October 26, 2020
Christopher M. Wolpert
Clerk of Court

JOSEPH A. HARRIS,
Petitioner - Appellant,
v.

No. 20-8011
(D.C.No. 2:19-CV-00193-NDF)
(D. Wyo.)

MICHAEL PACHECO, Warden,
Wyoming State Penitentiary,
Respondent - Appellee.

ORDER

Before HARTZ, McHUGH, and EID, Circuit Judges.

Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court
who are in regular active service. As no member of the panel and no judge in regular
active service on the court requested that the court be polled, that petition is also denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

Afp-en<i'i / A

Appellate Case: 20-8011

Document: 010110417424

Date Filed: 10/02/2020

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

October 2, 2020
Christopher M. Wolpert
Clerk of Court

JOSEPH A. HARRIS,
Petitioner - Appellant,
v.
MICHAEL PACHECO, Warden,
Wyoming State Penitentiary,

No. 20-8011
(D.C. No. 2:19-CV-00193-NDF)
(D. Wyo.)

Respondent - Appellee.

ORDER AND JUDGMENT*

Before HARTZ, McHUGH, and EID, Circuit Judges.

Joseph A. Harris, a Wyoming state prisoner representing himself, seeks to
appeal the district court’s dismissal of his application for relief under 28 U.S.C.
§ 2241. We deny his request for a certificate of appealability (COA) and dismiss that
aspect of the matter. Aside from seeking a COA, Mr. Harris appeals the district
court’s order denying his motion to appoint counsel, and we affirm that order.

* After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument. This order and judgment is not binding
precedent, except under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

Appendix

&

Appellate Case: 20-8011

Document: 010110417424

Date Filed: 10/02/2020

Page: 2

I. Background
In 1999 a Wyoming state court sentenced Mr. Harris to serve between 22 and
40 years in prison. He eventually was placed in a community-corrections facility. In
2015, however, he left the facility and did not return; after surrendering in North
Carolina, he was extradited back to Wyoming. On April 30, 2015, he was found
guilty of escape under the prison disciplinary code. He pursued an administrative
appeal but the conviction was upheld on July 21,2015. On March 21,2017, the
Wyoming parole board ordered that based on his escape he is ineligible for parole on
the sentence he was serving when he escaped.
On February 26, 2018, Mr. Harris petitioned for a writ of habeas corpus in a
Wyoming state court. The court dismissed the petition on April 4, 2019.
In September 2019, Mr. Harris filed his § 2241 application. He asserted that
his 2015 disciplinary proceeding violated his due-process rights because (1) no one
told him that an escape conviction would render him ineligible for parole, (2) no one
brought him before a court without unnecessary delay, (3) the disciplinary sergeant
was not neutral, and (4) he lost good time that the sentencing judge had granted.
Mr. Harris also alleged that the Wyoming parole board had granted parole to at least

i

Mr. Harris’s good-time claim is unclear. His application says that the
Wyoming Attorney General has not “contented [sic] anything about the [Wyoming
State Penitentiary] adding time to Mr. Harris’ incarceration by removing Good time
granted by the judge during his sentencing which the disciplinary involved has done.”
R. at 13. The district court reasonably construed this to allege “the disciplinary
proceeding added time to his incarceration by the removal of good time credit.” R. at
123.
2

Appellate Case: 20-8011

Document: 010110417424

Date Filed: 10/02/2020

Page: 3

six other prisoners who were statutorily ineligible, an allegation that the district court
construed as an equal-protection claim. After denying Mr. Harris’s motion to appoint
counsel, the district court dismissed the due-process claims with prejudice,
concluding that they are barred by the statute of limitations. And it dismissed the
equal-protection claim without prejudice after allowing Mr. Harris to amend his
application to provide additional essential information.
II. Discussion
A. COA
A state prisoner seeking to appeal a district court’s denial of a § 2241
application must obtain a COA before we may consider the merits of the appeal. See
Miller-El v. Cockrell, 537 U.S. 322, 335-36 (2003); Montez v. McKinna, 208 F.3d
862, 869 (10th Cir. 2000). We may issue a COA “only if the applicant has made a
substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2).
This standard requires a petitioner to “show that reasonable jurists could debate
whether (or, for that matter, agree that) the petition should have been resolved in a
different manner or that the issues presented were adequate to deserve
encouragement to proceed further.” Miller-El, 537 U.S. at 336 (brackets and internal
quotation marks omitted). When a district court denies a habeas petition on
procedural grounds, however, the petitioner must show that reasonable jurists could
debate not only whether the petition states a valid constitutional claim but also
whether the district court’s procedural ruling is correct. See Slack v. McDaniel,
529 U.S. 473, 484 (2000).
3

Appellate Case: 20-8011

Document: 010110417424

Date Filed: 10/02/2020

Page: 4

Reasonable jurists could not debate the propriety of the district court’s
procedural ruling on Mr. Harris’s due-process claims. His § 2241 claims are subject
to a one-year statute of limitations. See Burger v. Scott, 317 F.3d 1133, 1138
(10th Cir. 2003). This one-year period begins to run, as relevant here, on “the date
on which the factual predicate of the claim or claims presented could have been
discovered through the exercise of due diligence.” 28 U.S.C. § 2244(d)(1)(D).
Although Mr. Harris’s due-process claims arise from his 2015 disciplinary hearing,
the district court determined that one of the claims—the one alleging that no one told
him an escape conviction would make him ineligible for parole—could have accrued
as late as March 21, 2017, when he learned he is ineligible for parole. The district
court correctly concluded that a pending state habeas proceeding tolled the statute of
limitations from February 26, 2018, through April 4, 2019. See 28 U.S.C.
§ 2244(d)(2). And it further correctly concluded that after the state-court proceeding
ended on April 4, 2019, Mr. Harris had 24 days remaining to file his application.
Mr. Harris did not file his § 2241 application, however, until September 2019.
Mr. Harris’s tolling arguments cannot save his due-process claims from the
statute of limitations. He argues that the district court did not receive motions in
which he described circumstances that entitle him to equitable tolling from
February 2, 2016, until July 14, 2016. In addition, he says, he pursued administrative
remedies for his escape conviction, a pursuit that further tolled the limitations period.
He concludes, then, that his claims did not accrue until March 21, 2017. But as we

4

r
Appellate Case: 20-8011

Document: 010110417424

Date Filed: 10/02/2020

Page: 5

explained, even if his due-process claims did not accrue until March 21, 2017, they
are still barred by the statute of limitations.2
Nor could reasonable jurists debate whether the district court correctly
dismissed Mr. Harris’s equal-protection claim. To prevail on his class-of-one equalprotection claim, Mr. Harris must show that others “similarly situated in every
material respect were treated differently.” Kansas Penn Gaming, LLC v. Collins,
656 F.3d 1210, 1216 (10th Cir. 2011) (internal quotation marks omitted). A
Wyoming prisoner is ineligible for “parole on a sentence if, while serving that
sentence,” the prisoner has assaulted with a deadly weapon any officer, employee, or
inmate of an institution; or escaped, attempted to escape, or assisted others to escape.
Wyo. Stat. Ann. § 7-13-402(b). The parole board determines whether an inmate has
committed a disqualifying act. Wyo. Bd. of Parole Policy and Procedure Manual, 36,
§ II.C.l (2018). The district court gave Mr. Harris an opportunity to amend his
application to satisfy the similarly-situated requirement by providing for the
allegedly paroled prisoners “at least each person’s criminal history, disciplinary
history, length of time served before parole, mental health needs or risks, educational

2 The district court did not specifically decide when Mr. Harris’s good-time
claim accrued. To the extent he asserts that his loss of good time violated his
due-process rights, he appears to argue that this violation occurred during the 2015
disciplinary proceeding. R. at 13 (asserting that “the disciplinary [proceeding]
involved” the removal of good time that a judge had granted). And Mr. Harris did
not allege in his application, or in his submissions to us, that this claim accrued later
than July 21, 2015, when his disciplinary conviction was upheld, let alone later than
March 21, 2017, when the parole board ordered that he is ineligible for parole.
Reasonable jurists could not debate whether the court correctly dismissed that claim
as untimely.
5

Appellate Case: 20-8011

Document: 010110417424

Date Filed: 10/02/2020

Page: 6

or programming achievements, and date of parole.” R. at 178 (internal quotation
marks omitted). Yet Mr. Harris’s amended application does not allege such facts or
any facts showing that any of the six inmates with whom he compares himself was
determined by the parole board to have committed a disqualifying act and was
nevertheless granted parole on the sentence he was serving when he committed the
act. Because Mr. Harris’s amended application does not allege facts showing he is
similarly situated to any of the six inmates, he has not made a substantial showing of
an equal-protection violation. See Kansas Penn Gaming, 656 F.3d at 1216.
Mr. Harris complains that the information required by the district court was not
available to him. But it would have been improper for the court to speculate about
those matters. And the court’s dismissal was without prejudice.
B. Motion for Counsel
Mr. Harris does not need a COA to appeal the district court’s order denying his
motion for counsel. See Harbison v. Bell, 556 U.S. 180, 183 (2009). The district
court denied his motion after considering the facts that Mr. Harris alleged, the legal
arguments, and the stage of the case. “The decision to appoint counsel is left to the
sound discretion of the district court.” Engberg v. Wyoming, 265 F.3d 1109, 1122
(10th Cir. 2001). We see no reason to disturb the district court’s decision, especially
given our assessment of the merits of Mr. Harris’s claims.

6

1 *

Appellate Case: 20-8011

Document: 010110417424

Date Filed: 10/02/2020

III. Conclusion
We deny Mr. Harris’s request for a COA, affirm the district court’s order
declining to appoint counsel, and dismiss the balance of this matter.

Entered for the Court
Harris L Hartz
Circuit Judge

7

Page: 7

FILED

mssft
IN THE UNITED STATES DISTRICT COURT
9:49 am, 2/7/20

FOR THE DISTRICT OF WYOMING

Margaret Botkins
Clerk of Court

JOSEPH A. HARRIS,
Petitioner,
Case No. 19-CV-00193-F

vs.

MICHAEL PACHECO, Warden,
Wyoming State Penitentiary,
Respondent.

ORDER GRANTING RESPONDENT’S MOTION TO DISMISS AMENDED
PETITION
In its December 11-, 2019 order, the Court dismissed the due process claim of
Petitioner Joseph A. Harris as time-barred and permitted him to amend as to his equal
protection claim. Doc. 16. Mr. Harris timely filed a motion to amend, which the Court
granted.

Because Petitioner did not attach a separate Amended Petition, the Court

construes the motion as the Amended Petition. Doc. 21.1 The Respondent, Warden of the
Wyoming State Penitentiary in Rawlins, Wyoming (“WSP”), Michael Pacheco, moves to
dismiss the Amended Petition for failure to state a claim. Doc. 23. Petitioner opposes the
motion. Doc. 25. The deadline for a reply has passed, and the motion is therefore ripe.
For the following reasons, the Court grants the motion and dismisses this case.

i

The Amended Petition adds allegations without restating the original. Because Petitioner is pro
se, the Court considers the allegations in both the original (doc. 1) and Amended Petition.

A?f x

£

Petitioner alleges he has served the minimum years of his 22-40 year sentence. He
claims he was found ineligible for and denied parole in a March 21, 2017 hearing2 in
violation of his equal protection rights. Petitioner claims he was similarly-situated to six
other prisoners (Roger Black, Robert Spence, Thomas Rivera, Jonathan Roderick, Keith
Allen Rhodes, and Douglas A. Short) who were granted parole.
I.

Legal Standards for Equal Protection Claims
“The Equal Protection Clause of the Fourteenth Amendment commands that no

State shall ‘deny to any person within its jurisdiction the equal protection of the laws,’
which is essentially a direction that all persons similarly situated should be treated alike.”
City of Cleburne v. Cleburne Living Ctr., 473 U.S. 432, 439 (1985). “In order to assert a
viable equal protection claim, plaintiffs must first make a threshold showing that they were
treated differently from others who were similarly situated to them.” Requena v. Roberts,
893 F.3d 1195,1210 (10th Cir. 2018) (internal quotation marks omitted), cert. denied, 139
S. Ct. 800 (2019). “Individuals are ‘similarly situated’ only if they are alike ‘in all relevant
respects.’” Id. (internal quotation marks omitted). See also Heath v. Norwood, 772 F.
App’x 706, 709 (10th Cir. 2019) (for a “class of one” equal protection claim, the plaintiff
must show the “others were similarly situated in every material respect,” internal quotation
marks omitted).
A “class of one” claim is “where the plaintiff alleges that []he has been intentionally
treated differently from others similarly situated and that there is no rational basis for the

2 As in the December 11 order, the Court does not reach the statute of limitation issue as to
Petitioner’s equal protection claim.
2

r

difference in treatment.” Kansas Penn Gaming LLCv. Collins, 656F.3d 1210, 1216 (10th
Cir. 2011) (quoting Village of Willowbrook v. Olech, 528 U.S. 562, 564 (2000)). “The
paradigmatic ‘class of one’ case, sensibly conceived, is one in whicha public official, with
no conceivable basis for his action other than spite or some other improper motive
(improper because unrelated to his public duties), comes down hard on a hapless private
citizen.” Id.
To prevail on this theory, a plaintiff must first establish that others, similarly
situated in every material respect were treated differently. A plaintiff must
then show this difference in treatment was without rational basis, that is, the
government action was irrational and abusive, and wholly unrelated to ciny
legitimate state activity. This standard is objective—if there is a reasonable
justification for the challenged action, we do not inquire into the government
actor’s actual motivations.
Kansas Penn, 656 F.3d at 1216 (quotation marks and citations omitted).
The Tenth Circuit has “approached class-of-one claims with caution, wary of
turning even quotidian exercises of government discretion into constitutional causes,”
because “[t]he concept of a class-of-one equal protection claim could effectively provide a
federal cause of action for review of almost every executive and administrative decision
made by state actors ... a role that is both ill-suited to the federal courts and offensive to
state ... autonomy in our federal system.” Id. (quotation marks omitted). “Relying in part
on these concerns, we have recognized a ‘substantial burden’ that plaintiffs demonstrate
others ‘similarly situated in all material respects’ were treated differently and that there is
no objectively reasonable basis for the defendant’s action.” Id. at 1217.
Thus Petitioner must allege enough facts about himself and each inmate who was
allegedly given more favorable treatment to make plausible that they were similarly3

— like his disciplinary conviction for escape3 - are supposed to cause inmates to be
ineligible for parole under the Wyoming Parole Board’s rules. Petitioner quotes the
Wyoming Board of Parole Policy and Procedure Manual at length, which the Court
excerpts here in relevant part:
II. CRITERIA
A. An inmate must have served his/her minimum term, less any good
time and special good time earned.
* * *

C. An inmate is disqualified from parole eligibility on a sentence if
the Board determines that, while serving that sentence, he/she has made an
assault with a deadly weapon upon an officer, employee or inmate of any
institution, or has escaped, attempted to escape or assisted others to escape
from any institution. (W.S. § 7-13-402). The following provisions shall apply
in the application of this statutory bar by the Board:
1. It is the Board's responsibility to determine whether an inmate has
committed a disqualifying act.
2. The following definitions shall be applied in making that
determination:
* * *

d. "Escape" is defined as escape by an inmate from official detention
in any institution or, in the case of inmates, probationers and parolees
committed to Adult Community Corrections Facilities (ACCs), failure to
remain within the extended limits of confinement or to return to the ACC
within the time prescribed or ordered to do so or leaving the place of
employment. (W.S. §§ 6-5-206 and 7-18-112).
* * *

3. In the case of a conviction in a court of law of the commission of a
crime which contains all of the factual elements of a disqualifying act, such
3 Petitioner appears to argue his disciplinary conviction is barred by res judicata because the
criminal charge was dismissed with prejudice. The Court already held Petitioner’s claim regarding
the disciplinary conviction is time-barred. The Court has reviewed Petitioner’s motion to
reconsider, and the two response briefs Petitioner submitted with it. Docs. 18-20. Petitioner does
not show error in the Court’s determination that the due process claim is barred as untimely.
Petitioner also does not cite any support that the DOC’s disciplinary process is subject to
res judicata. Petitioner cites Barrows v. Hogan, 379 F. Supp. 314, 315 (M.D. Pa. 1974), but in
that case, the prisoner “was acquitted by a jury after considering all the evidence in the case; no
mere technical rule imposed by the governing law caused the Court to dismiss the indictment.”
Here, Petitioner’s criminal escape charge was dismissed without trial. Respondent asserts it was
dismissed because of a speedy trial act violation. Doc. 7. Petitioner does not appear to dispute this.
5

conviction shall be conclusive in the Board's determination that the inmate is
ineligible for parole. Convictions for crimes which, in the Board's
determination, are not based on facts containing all of the elements of a
disqualifying act as set forth and defined herein shall not bar an inmate from
parole eligibility.
4. In the case of a WDOC or ACC disciplinary conviction based on
commission of an act or acts which include all of the factual elements of a
disqualifying act, there shall be a rebuttable presumption that the inmate is
ineligible for parole.
a. Inmates who are deemed by the Board to be ineligible for parole
based on a disciplinary conviction may petition the Board to reconsider its
decision, utilizing the Petition for Review form appended to this policy.
b. Upon petition ofan inmate under this policy, the Board shall afford
the inmate an evidentiary hearing meeting the same procedural protections
as those contained in the Board's final revocation hearing procedure. Notice
of such hearings will be provided to WDOC, which may provide any
evidence to substantiate the disciplinary conviction, with WDOC having the
burden of proof.
c. Upon the conclusion of the presentation of evidence, a three
member panel of the Board shall make its determination by a majority vote
as to eligibility or non-eligibility based on the preponderance ofthe evidence
regarding the question of whether or not a disqualifying act was voluntarily
committed.
d. A finding of eligibility does not ... in any way obligate the Board
to grant a parole.
Doc. 21, pp. 3-4 (emphasis added).4
Mr. Harris also adds the following facts regarding the six other inmates:
Inmate
Roger Black

Amended Petition
Petitioner alleges Black "has repeatedly been paroled and/or
released by the Parole Board after being convicted of
murdering another inmate and escaping from the Wyoming
State Penitentiary, meeting 2 of the non-parolable [sic]
criteria and being paroled.” The Amended Petition does not
allege whether the convictions were disciplinary, judicial, or
both.

Robert Spence

Petitioner alleges Spence "murdered another inmate, violating
the law and being convicted in the Courts for such and having

4 Respondent attaches a copy of the same rule to his motion to dismiss. Doc. 24-1.
6

a disciplinary for the offense, yet he too was paroled from the
number [sic] that he committed the offense.”
Thomas Rivera

Petitioner alleges “attempted escape, and he too was released
by the Board,” despite having a disciplinary conviction for
same. In his response, Petitioner alleges Mr. Rivera also
received a court conviction for same.

Jonathan Roderick

Petitioner alleges Roderick “was convicted of Conspiracy to
Escape by the courts and received a 4 to 6 year prison
sentence, which is supposed to be an un-parolable offense,
but he was still paroled.”

Keith Allen Rhodes

Petitioner alleges Rhodes “assaulted a prison guard in 2017,
and [was] found guilty of such by the Court and convicted of
an internal disciplinary for the offense, and he too was
paroled.” The original Petition alleges Mr. Rhodes was
paroled to his criminal assault no. CR-2017-004.

Douglas A. Short

Petitioner alleges escape, but does not allege whether Mr.
Short was criminally convicted or received a disciplinary
conviction, if either. Also alleges “paroled to his detainer for
the escape, ... violating the requirements of the Parole Boards
Manual.” The original Petition further alleges Mr. Short was
serving a 12-22 year sentence and was paroled to his escape
detainer” “after the WBP contended at a March 21, 2019
Parole hearing that Mr. Short had escaped.”

Unknown Name

Petitioner alleges “multitudes of others” including “one
inmate more closely related to me,” but WSP refuses to give
his name to Petitioner.

Petitioner asserts he has now alleged all relevant facts regarding the other inmates
because, as clarified in his Amended Petition, his claim does not regard the Board’s denial
of his parole request, but only the finding that he is ineligible for parole.
B.

Jurisdictional Issue on the Amended Claim
In the original Petition, it was less than clear whether Petitioner’s equal protection

claim sought only a reversal of his parole ineligibility or instead sought immediate parole.
See Doc. 1 1 2 (alleging other inmates have been granted parole, and constitutional

7

violations “which delay Mr. Harris’ release”); Doc. 1, p. 12 (order of the Second Judicial
District denying Petitioner’s request for review of the Board’s denial of Petitioner’s
parole), Doc. 1, p. 19 (order of the Eighth Judicial District dismissing Petitioner’s request
to review Board’s determination that he is ineligible for parole). Petitioner now alleges
The parole board has the authority to parole anyone that it chooses, as there
is not a constitutional right to be paroled, but under no authority ... does it
have the right to say that I'm ineligible for parole and then parole the
multitude of persons that it has that committed the same or similar nonparoleable offense. * * * [T]he Parole board should then be forced to make
me parole eligible as they have allowed otherfs] to be paroled that were in
my same or similar situation. The parole board would then not have to grant
me parole based upon any disciplinary infractions, but the relevance is that
I would be eligible for parole or at least be consideredfor this release.
Doc. 21, ^ 18, 20 (emphasis added).
Petitioner’s clarification of his claim raises a jurisdictional issue. He asks for a
ruling that he is eligible for parole and recognizes this does not necessarily mean he will
be granted parole. The claim therefore does not seek speedier release and does not fall
within the Court’s habeas jurisdiction. See, e.g., Barela v. Wyoming Dept, of Corrections
Warden, 19-cv-ll-NDF, 2020 WL 500170 (D. Wyo. Jan. 31,2020) (citingPalma-Salazar
v. Davis, 677 F.3d 1031, 1035 (10th Cir. 2012); Wilkinson v. Dotson, 544 U.S. 74, 82
(2005)). Such a claim would have to be brought under 42 U.S.C. § 1983.
C.

Construing the Amended Claim as Brought Under § 1983 Would Be Futile
Because Petitioner is pro se, the Court has considered whether it should liberally

construe the Amended Petition as though he had filed it as a civil action under § 1983. See
Barela, 2020 WL 500170. Petitioner has qualified to proceed in forma pauperis on his
habeas petition, but for “a civil action,” such as a § 1983 complaint, that only means he
8

would not have to prepay the entire $400 filing fee. Petitioner would have to pay the full
filing fee over time. 28 U.S.C. § 1915(b)(1), (2). This could impose a significant burden
on Petitioner.
Construing the Amended Petition as a § 1983 action would also be futile in this case.
The applicable Wyoming statute provides “A prisoner is not eligible for parole on a
sentence if, while serving that sentence, he has:(i) Made an assault with a deadly weapon
upon any officer, employee or inmate of any institution; or (ii) Escaped, attempted to
escape or assisted others to escape from any institution.” Wyo. Stat. Ann. § 7-13^102(b).
The Board’s rule regarding parole disqualification quoted in the Amended Petition (and
above) mirrors the statute. Although Petitioner argues he has now pled all facts necessary
to state a plausible equal protection claim regarding his ineligibility for parole, the
Amended Petition still fails to state a plausible claim, for several reasons.
First, parole ineligibility under this rule regards only the sentence(s) being served at
the time of a disqualifying act. An inmate cannot be paroled from the sentence he is serving
at the time the disqualifying offense occurred, but the disqualifying act does not make him
ineligible for parole on sentences he was not yet serving at the time. The Amended Petition
does not allege what sentence(s) each of the six inmates were serving at the time they
committed their disqualifying offense(s), and whether those were the same sentences from
which they were paroled. Many DOC inmates are serving multiple sentences and while
some are served concurrently, many are served consecutively. Therefore, the sentence(s)
the inmate was serving at the time of the disqualifying act versus consecutive sentence(s)
they were not yet serving is a critical fact Petitioner must allege as to each inmate. The
9

Amended Petition does not allege this information as to any of the six inmates. It therefore
fails to plausibly allege Petitioner was similarly situated as to any of the other inmates.
Indeed, because Petitioner alleges Short and Rhodes were paroled to their detainers
on the convictions received for the disqualifying acts - which by definition they could not
have been serving already when they committed those acts - his allegations affirmatively
show these inmates were not paroled on sentences they were serving at the time of their
disqualifying acts. Petitioner was not similarly situated with respect to Short or Rhodes.
Second, under the Board’s rule a judicial conviction for a disqualifying offense is
conclusive, whereas a disciplinary conviction for such an offense is rebuttable. In the latter,
the inmate has the opportunity to petition the Board for an evidentiary hearing. See the
Board rule at § II.C.4. The Board then votes “as to eligibility or non-eligibility based on
the preponderance of the evidence regarding the question of whether or not a disqualifying
act was voluntarily committed.” The Amended Complaint alleges four of the inmates
received judicial convictions for disqualifying acts, but is silent on this issue regarding Mr.
Black and Mr. Short. Petitioner’s response just asserts “they all received a disciplinary for
their actions, but some unlike me, also received an extra charge.” Assuming Black and
Short did not have judicial convictions for their disqualifying acts, if they requested an
evidentiary hearing and the evidence supported it, the Board could have found they did not
voluntarily commit a disqualifying act. The Amended Petition does not allege any facts
regarding these questions as to Black or Short. This is an additional reason Petitioner does
not allege he was similarly situated to Black or Short.

10

r
i *'

Third, as to Mr. Roderick, while escape, attempted escape, and assistance of others’
escape are disqualifying offenses, conspiracy to escape is not. Wyo. Stat. Ann. § 7—13—
402. Petitioner argues Roderick received a judicial conviction for that conduct, and that
any judicial conviction causes the inmate to be ineligible for parole under the Board’s rule.
This is inaccurate.

Only judicial convictions for “the commission of a crime which

contains all of the factual elements of a disqualifying act” during a particular sentence make
the inmate ineligible for parole on that sentence. See the Board’s rule at § II.C.3. This is
an additional reason Petitioner does not allege he was similarly-situated to Mr. Roderick.
In short, even if Petitioner’s equal protection claim is timely, it fails to state a claim.
As such, liberally construing the Amended Petition as though it were a § 1983 civil action
would be futile.
III.

Conclusion
For each of the reasons stated above, the Court GRANTS Respondent’s motion to

dismiss (Doc. 23). This proceeding is DISMISSED WITH PREJUDICE as to Petitioner’s
due process claim. It is DISMISSED WITHOUT PREJUDICE as to Petitioner’s equal
protection claim. Judgment shall enter accordingly, and the Clerk shall close this case.
IT IS SO ORDERED this 7th day of February, 2020.

If
NANCY D. FREUDENTHAL
UNITED STATES DISTRICT JUDGE

11

